App’x 1

HmteS States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted March 26, 2020*
Decided May 4, 2020
Before
DAVID F. HAMILTON, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
No. 19-1434
MARIA M. ROSAS,
Plaintiff-Appellant
Appeal from the United States District
Court for the Northern District
of Illinois, Eastern Division.

*We have agreed to decide the case without
oral argument because the briefs and record
adequately present the facts and legal arguments,
and oral argument would not significantly aid the
court. FED. R. APP. P. 34(a)(2)(C).

App’x 2

No. 18 C 5340

v.

ADVOCATE CHRIST MEDICAL CENTER, et al.
Defendants-Appellees.
Gary Feinerman,
Judge.
ORDER
Maria Rosas contends that a state agency and
others wrongfully institutionalized her ten years
ago. The district court correctly rules that the
agency is not a “person” subject to suit and the twoyear statute of limitations blocks her claims, so we
affirm.
This case concerns Rosas’s two mental health
institutionalizations—one in 2009 and another in
2010. (In reviewing her claims, we accept as true her
well-pleaded allegations and draw all reasonable
inferences in her favor. See, e.g., Anicich v. Home
Depot U.S.A., Inc., 852 F.3d 643, 648 (7th Cir. 2017)).
She alleges that in 2009, a neighbor reported to the
Chicago police that she had been revving her car
engine and throwing rocks at cars and houses. Police

App’x 3

arrived and found Rosas in her car, revving the
engine, and refusing to leave. Rosas says she was
merely trying to warm her car and that when police
arrived she feared for her safety and did not want to
get out. She denies that she was throwing rocks.
Her first hospitalization occurred next. The
police transported Rosas to a medical center, where
a doctor diagnosed her with “acute onset psychosis”
and

“delusional

behavior.”

Rosas

was

soon

transferred to the Madden Mental Health Center, a
state psychiatric hospital. She objected to staying
there and told staff that she wanted to go home.
Medical staff mistreated and over-medicated her,
she also alleges. Madden discharged her the next
month.
Rosas’s second hospitalization occurred the
following year after a similar trajectory. Rosas was
seen vandalizing cars at an automotive body shop.
When she returned to that shop a few days later, the
owner called the police. The police officer reported
(falsely, Rosas alleges) that she admitted to having
mental health issues. She was taken to a hospital

App’x 4

briefly, and then, as in 2009, to Madden. There, she
refused to sign a “consent for services” but remained
there for a week. Rosas alleges that, because of a
“conspiracy” to commit her without justification, her
experience at Madden exacerbated her depression
and “heightened [her] fear of doctors.”
Six years later, in 2016, Rosas (with her
daughter’s

help)

began

investigating

her

hospitalizations to prepare for this lawsuit. She
received her medical and police records that police
officers, along with other “known and unknown” co­
conspirators, agreed to “exaggerate and fabricate
allegations against her and thereby deprive her of
her constitutional rights.” She further alleges that
the staff at the hospitals failed to prevent this abuse.
At the outset of the suit, Rosas asked the district
court to recruit counsel. She listed 26 calls that she
made

to

lawyers,

and

their

responses.

Her

submission showed that she did not follow-up on the
responses. For instance, Legal Aid Chicago invited
her to attend one of its walk-in clinics, but she did
not; after Loevy & Loevy said that it did not

App’x 5

have native Spanish speakers, she did not tell the
firm that she speaks some English; and after Miner,
Barnhill & Galland said that it would call her back,
she did not seek a return call. The court denied her
motion to recruit counsel, concluding that Rosas had
not shown an inability to afford counsel or a
reasonable effort to obtain counsel on her own.
The district court later granted defendants’
motions to dismiss. It ruled that Madden Health
Center was part of a state agency (the Illinois
Department of Human Services), and thus was not a
“person” under 42 U.S.C. §§ 1983, 1985, or 1986. Will
v. Michigan Dept, of State Police, 491 U.S. 58, 71.
The claims against the other defendants could not
proceed, the court explained, because the statute of
limitations blocked them. The statute of limitations
for claims under § 1986, which is set forth in the
statute itself, is one year; the limitations period for
§§ 1983 and 1985 claims, borrowed from Illinois law,
is two years. See Lewis v. City of Chicago, 914 F.3d
472, 477 (7th Cir. 2019) (§ 1983); Small v. Chao, 398
F.3d 894, 898 (7th Cir. 2005) (§ 1985). The court

' App’x 6

rejected Rosas’s tolling argument: she argued that,
until she obtained medical records in 2017, she did
not know the cause of her injuries. The court
explained that Rosas did not need those records to
know the cause of her injuries, and in any case she
had not offered a reason she could not have obtained
them earlier.
On appeal, Rosas first argues that the district
court abused its discretion when denying her motion
to recruit counsel, but we disagree. Rosas asked for
counsel before the defendants had been served. Until
defendants have responded to a complaint, the
district court faces “the difficulty of accurately
evaluating the need for counsel.” Mapes v. Indiana,
932 F.3d 968, 971-72 (7th Cir. 2019). Furthermore,
“[a] litigant’s good faith ... effort to obtain counsel is
a necessary condition to the provision of judicial
assistance to recruit a lawyer.” Pickett v. Chi.
Transit Auth., 930 F.3d 869, 871 (7th Cir. 2019); see
also Pruitt v. Mote, 503 F.3d 647, 654 (7th Cir. 2007)
(en banc). The district court here reasonably
concluded that Rosas to show that she made such an

App’x 7

effort because she did not follow up on any of her
calls, including the potentially promising leads.
Without

disputing

that

the

longest

limitations is two years, Rosas next argues that the
limitations period should be tolled for two reasons.
Both are unavailing. First, she contends that,
because of her mental illness, she could not “manage
... her estate” (the standing for disability under
Illinois’ guardianship statute, 5 ILCS 70/1.06), and
she did not know that she could sue until 2018. But
she did not raise this argument in the district court,
so she has forfeited the contention. See Scheidler v.
Indiana, 914 F.3d 535, 540, 544 (7th Cir. 2019).
Second, she argues that she did not discover
her injuries until 2017—when she (with her
daughter’s help) obtained her records. But a claim
accrues “when a plaintiff knows the fact and the
cause of injury.” Amin Ijbara Equity Corp. v. Vill. Of
Oak Lawn, 860 F.3d 489, 493 (7th Cir. 2017). And
Rosas alleges in her complaint that she knew in 2009
and 2010 that Madden and its staff had civilly
confined her without adequate justification. Thus,

App’x 8

Rosas did not need to obtain any records to know of
her alleged injury in 2010, which means that the
two-year

limitations

period

ended

by

2012.

Moreover, even if she need those records to learn the
identities of defendants, she and her daughter did
not begin to ask for them until more than six years
after 2010, by which time the limitations period had
already ended four years earlier. And she did not
present to the district court a reason why she or her
daughter was prevented from seeking those record
earlier. See Rosado v. Gonzalez, 832 F.3d 714, 71617 (7th Cir. 2016). Finally, any asserted ignorance of
the legal significance of what she knew back in 2010
does not justify equitably tolling the statute of
limitations. See Tobey v. Chibucos, 890 F.3d 634, 646
(7th Cir. 2018). Thus, the claims are time-barred. See
Amin Ijbara Equity Corp. v. Vill. Of Oak Lawn, 860
F.3d at 493; Brooks v. Ross, 578 F.3d 574, 579 (7th
Cir. 2009) (statute of limitations defense blocks a
claim where “the relevant dates are set forth
unambiguously in the complaint”). In addition, in
her reply brief, Rosas argues for the first time that

App’x 9

she was in fact still disabled until 2017, but she
forfeited that point by failing to raise it earlier.
Rosas does not challenge the district court’s
conclusion that Madden is not a “person” capable of
being sued under §§ 1983, 1985, or 1986, so we need
not address that part of the court’s order.
AFFIRMED

App’x 10

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
ILLINOIS
Eastern Division
MARIA M. ROSAS
Plaintiff,
vs.
18 C 5340
Judge Gary Feinerman
ADVOCATE CHRIST MEDICAL CENTER,
MacNEAL HOSPITAL, MADDEN MENTAL
HEALTH CENTER, and CHICAGO POLICE
DEPARTMENT.
Defendants.
ORDER
Defendants’

motion

to

dismiss

[26] [29] [33] [63] are granted for the reasons set forth
below. This case is dismissed with prejudice. The
3/13/2019 status hearing [71] is stricken. Enter
judgment order. Civil case closed.
STATEMENT
In this suit under 42 U.S.C. §§ 1983, 1985,
and 1986. Maria Rosas alleges that Defendants were
responsible for her wrongful mental health-related

App’x 11

commitments in 2009 and 2010. Doc. 15. Rosas was
discharged from her second commitment in June
2010. Id. at f 78. She did not file this suit until
August 2018. Doc. 1. Anticipating a statute of
limitations problem, Rosas alleges that did not
realize that the commitments may have violated §§
1983, 1985, and 1986 until late 2016 or early 2017,
when she began requesting and obtaining relevant
police department, fire department, and medical
records. Doc. 15 at

5-7, 10, 34-78.

As Defendant Madden argues and Rosas
admits, Madden is part of the Illinois Department of
Human Services, a state agency. Doc. 29 at 2 (citing
20 ILCS 1705/4(a)). Doc. 55 at f 9 (admitting that
“Madden” ... [is] a state hospital supervised by the
Illinois Department of Human Services”) (emphasis
omitted). Because “a state agencyQ is not a ‘person’
that can be sued under” § 1983, Owens v. Godinez,
860 F.3d 434, 438 (7th Cir. 2017), or under §§ 1985 or
1986, see Small v. Chao, 398 F.3d 894, 898 (7th Cir.
2005), Rosas’s claims against Madden fail as a
matter of law. See Vt. Agency of Nat. Res. v. United

App’x 12

States ex rel. Stevens, 529 U.S. 765, 779 (2000) (“We
... routinely address[] before the question whether
the Eleventh Amendment forbids a particular
statutory cause of action to be asserted against
States, the question whether the statute permits the
cause of action it creates to be asserted against
States ... ”).
Rosa’s

[sic]

claims

against

the

other

defendants (Chicago Police Department, Advocate
Christ Medical Center, and MacNeal Hospital) fail
on limitations grounds. (Advocate and MacNeal
raised the limitations issue in their motions to
dismiss, Doc. 33 at 4-8; Doc. 63 at 3, and the Chicago
Police Department was permitted at the motion
hearing. Doc. 71, to adopt their argument.) The
limitations period is two years for Rosa’s [sic] §§
1983 and 1985 claims, see Lewis v. City of Chicago,
914 F.3d 472, 478 (7th Cir. 2019); Small, 398 F.3d at
898, and one year for her § 1986 claim, see 42 U.S.C.
§ 1986. A claim under those statutes “accrues ‘when
the plaintiff has a complete and present cause of
action, that is, when the plaintiff can file suit and

App’x 13

obtain relief.’” Amin Ijbara Equity Corp. v. Vill. Of
Oak Lawn, 860 F.3d 489, 493 (7th Cir. 2017) (quoting
Wallace v. Kato, 549 U.S. 384, 388 (2007)). For
Rosas, that was (at the latest) in June 2010, when
she was released from her second commitment. It
follows that the limitations periods expired in June
2011 for her § 1986 claim and June 2012 for her §§
1983 and 1985 claims, years before she filed this
suit.
Rosas argues that the statutes of limitations
do not bar her claims because she did not discover
the true cause of her injuries until obtaining copies
of her

medical

records

and

relevant

police

department and fire department reports in “Dec.
2017/Jan. 2018.” Doc. 54 at 1 20; Doc. 67 at Tf 17.
That argument fails to persuade. Rosas’s claims
accrued when she “should have known of [her]
injury.” Sellers v. Perry, 80 F.3d 243, 246 (7th Cir.
1996); see also Clark v. City of Braidwood, 318 F.3d
764, 767 (7th Cir. 2003) (“[T]he limitations period is
tolled ... if [the plaintiff] cannot obtain information
necessary to file suit.”). That occurred at the latest

App’x 14

when she was discharged from her commitments;
she

did

not

need

records

related

to

those

commitments to know that she had been committed
and her experiences while committed. Doc. 54 at f
20 (Rosas noting that in 2016 Rosas “remembered
how medical personnel [in 2009 and 2010] kept
telling her that she had to be” at Madden); Doc. 67
at t 17 (same); see Evans v. Pokson, 603 F.3d 362,
363 (7th Cir. 2010) (explaining that a claim for
unconstitutional seizure accrues at the time of the
seizure, not after further details are learned or
develop). Moreover, even assuming (incorrectly) that
Rosas’s claims would have accrued until she
reasonably could have obtained copies of the
relevant records and reports, she has not explained
why she could not have obtained those materials
shortly after her discharges in 2009 and 2010. See
Clark, 318 F.3d at 767 (holding that the discovery
rule applies only where “a reasonable [plaintiff]
would not have discovered the injury earlier”);
Cathedral of Joy Baptist Church v. Vill. of Hazel
Crest, 22 F.3d 713, 717 (7th Cir. 1994) (holding that

App’x 15

the plaintiff must “exercise [e]

[sic] reasonable

diligence” to successfully invoke the discovery rule).
Accordingly, because Rosas’s claims accrued
upon or shortly after her releases from 2009 and
2010 commitments, her claims are time-barred.
Dismissal at the pleading stage on this ground is
appropriate because the limitations bar are plain
from the complaint. See Collins v. Vill. of Palatine,
875 F.3d 839, 842 (7th Cir. 2017); Chi. Bldg. Design,
P.C. v. Mongolian House, Inc., 770 F.3d 610, 613 (7th
Cir. 2014).
Given the foregoing, there is no need to
address Defendants’ other grounds for dismissal.
And because the limitations bars (which apply with
equal force to the claims against Madden) could not
be cured with repleading, the dismissal is with
prejudice. See Cardenas v. City of Chicago, 646 F.3d
1001, 1008 (7th Cir. 2001) (explaining that dismissal
with prejudice is “appropriate” after the statute of
limitations has expired).
March 7, 2019

Is/
United States District Judge

App’x 16

Umte5 States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
September 10, 2020
Before
DAVID F. HAMILTON, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
No. 19-1434
IRMA ROSAS,
Plaintiff-Appellant,

v.

Appeal from the United States District
Court for the Northern District
of Illinois, Eastern Division.
No. l:18-cv-5340

ADVOCATE HEALTH AND HOSPITALS
CORPORATION, doing business as ADVOCATE
CHRIST MEDICAL CENTER, et al„
Defendan ts-Appellees.
Gary Feinerman,
Judge.

App’x 17

ORDER
Plaintiff-appellant

filed

a

petition

for

rehearing and rehearing en banc on May 18, 2020.
No judge in regular active service has requested a
vote on the petition for rehearing en banc, and all
members of the original panel have voted to deny
panel rehearing. The petition for rehearing and
rehearing en banc is therefore DENIED.

